U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: John Shields v. United States, No. 21-5042
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 29, 2021.
The government’s response is now due, after one extension, on September 8, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 8, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-5042
SHIELDS, JOHN
USA

DENNIS C. BELLI
536 HIGH ST.
F12
COLUMBUS, OH 43215-5785

